j
,I


                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          We reviewed an allegation of plagiarism1in an NSF Collaborative proposal.2 The PIS and co-
          PIS on the proposal, the subject^,^ allegedly copied text into the proposal without appropriately
          distinguishing it from their own work.

          Our review showed that the total amount of apparently copied text was very limited.4 Further,
          about half of the apparently copied text was written by one of the participants on the proposal,
          who was described within the text of the proposal as one of the co-PIS, even though he was only


          We concluded that there was insufficient substance. Accordingly, this case is closed and no
          hrther action will be taken.




NSF OIG Form 2 (1 1/02)

I                                  I
